<html>
<title> - H.R. 240, VETERANS' EMPLOYMENT OPPORTUNITIES ACT OF 1997</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
        H.R. 240, VETERANS' EMPLOYMENT OPPORTUNITIES ACT OF 1997
=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CIVIL SERVICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 240

TO AMEND TITLE 5, UNITED STATES CODE, TO PROVIDE THAT CONSIDERATION MAY 
NOT BE DENIED TO PREFERENCE ELIGIBLES APPLYING FOR CERTAIN POSITIONS IN 
            THE COMPETITIVE SERVICE, AND FOR OTHER PURPOSES

                               __________

                           FEBRUARY 26, 1997
                               __________

                           Serial No. 105-34
                               __________

Printed for the use of the Committee on Government Reform and Oversight






                     U.S. GOVERNMENT PRINTING OFFICE
43-102                       WASHINGTON : 1997
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              TIM HOLDEN, Pennsylvania
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
JOHN B. SHADEGG, Arizona             DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           ROD R. BLAGOJEVICH, Illinois
MARSHALL ``MARK'' SANFORD, South     DANNY K. DAVIS, Illinois
    Carolina                         JOHN F. TIERNEY, Massachusetts
JOHN E. SUNUNU, New Hampshire        JIM TURNER, Texas
PETE SESSIONS, Texas                 THOMAS H. ALLEN, Maine
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
------ ------
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                     Subcommittee on Civil Service

                    JOHN L. MICA, Florida, Chairman
MICHAEL PAPPAS, New Jersey           TIM HOLDEN, Pennsylvania
CONSTANCE A. MORELLA, Maryland       ELIJAH E. CUMMINGS, Maryland
CHRISTOPHER COX, California          ELEANOR HOLMES NORTON, Washington, 
PETE SESSIONS, Texas                     DC

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   George Nesterczuk, Staff Director
               Susan Mosychuk, Professional Staff Member
                  Ned Lynch, Professional Staff Member
                          Caroline Fiel, Clerk
          Cedric Hendricks, Minority Professional Staff Member








                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 26, 1997................................     1
    Text of H.R. 240.............................................     9
Statement of:
    King, James B., Director, U.S. Office of Personnel 
      Management, accompanied by Mary Lou Lindholm, Associate 
      Director for Employment, Office of Personnel Management....    49
    Naschinski, Emil, assistant director, national economics 
      commission, the American Legion; Charles L. Calkins, 
      national executive secretary, Fleet Reserve Association; 
      Sidney Daniels, director, national veterans' employment 
      assistance service, Veterans of Foreign Wars; and Larry 
      Rhea, deputy director, legislative affairs, Non-
      Commissioned Officers Association..........................    76
Letters, statements, etc., submitted for the record by:
    Calkins, Charles L., national executive secretary, Fleet 
      Reserve Association, prepared statement of.................    85
    Daniels, Sidney, director, national veterans' employment 
      assistance service, Veterans of Foreign Wars, prepared 
      statement of...............................................    93
    Holden, Hon. Tim, a Representative in Congress from the State 
      of Pennsylvania, prepared statement of.....................    38
    King, James B., Director, U.S. Office of Personnel 
      Management:
        Information concerning employment of veterans by 
          executive departments..................................    57
        Prepared statement of....................................    52
        Promotion rates for veterans.............................    72
    Lindholm, Mary Lou, Associate Director for Employment, Office 
      of Personnel Management, information concerning who is 
      entitled to veterans' preference in appointment............    63
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida:
        Letter dated Februry 6, 1997.............................    59
        Prepared statement of....................................     4
    Naschinski, Emil, assistant director, national economics 
      commission, the American Legion, prepared statement of.....    78
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia, prepared statement of.......    42
    Pappas, Hon. Michael, a Representative in Congress from the 
      State of New Jersey, prepared statement of.................    40
    Rhea, Larry, deputy director, legislative affairs, Non-
      Commissioned Officers Association:
        Pamphlet entitled, ``Veterans Preference--An Earned 
          Right''................................................   114
        Prepared statement of....................................   103
    Sessions, Hon. Pete, a Representative in Congress from the 
      State of Texas, prepared statement of......................    45







        H.R. 240, VETERANS' EMPLOYMENT OPPORTUNITIES ACT OF 1997

                              ----------                              


                      WEDNESDAY, FEBRUARY 26, 1997

                  House of Representatives,
                     Subcommittee on Civil Service,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:40 p.m., in 
room 2247, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee), presiding.
    Present: Representatives Mica, Pappas, Morella, Sessions, 
Holden, and Norton.
    Staff present: George Nesterczuk, staff director; Garry 
Ewing, counsel; Susan Mosychuk and Ned Lynch, professional 
staff members; Caroline Fiel, clerk; and Cedric Hendricks, 
minority professional staff member.
    Mr. Mica. Good afternoon. I would like to call this meeting 
of the House Civil Service Subcommittee to order, and welcome 
you to the hearing.
    Today we are going to focus on the question of veterans' 
employment and veterans' preference in the Federal workplace, 
and in particular on the Veterans' Employment Opportunities Act 
of 1997. I am going to begin with an opening statement, and I 
will yield to our members. And then we will begin the hearing 
with our two panels.
    I would also like to welcome Ms. Norton. I think that she 
has been tied up, and has not been on the panel before. But we 
are glad that you are here today. Mr. Pappas was introduced 
last time, and Mrs. Morella, and, of course, our ranking 
member, Mr. Holden. Again, welcome.
    I called this hearing to examine the provisions of the 
Veterans' Employment Opportunities Act of 1997, H.R. 240. I 
introduced this bill in order to strengthen veterans' 
preference in the Federal Government and to increase job 
opportunities for our veterans.
    It is obvious that this bill has had long term bipartisan 
support, but it is important that we move legislation forward.
    I am extremely pleased that our new ranking member, Mr. 
Holden, a distinguished member of our panel, is also a co-
sponsor of this legislation, and others on this panel. I thank 
them for their support, and also for their efforts in working 
closely to make this bill a reality.
    As many of you know, I introduced similar legislation in 
the last Congress. That bill, H.R. 3586, passed the House by 
voice vote. We passed that twice, in fact, and we passed it 
also as a revision or an amendment to another piece of 
legislation.
    Unfortunately, the Senate did not act on either bill. And 
we are still in the situation of our veterans being denied the 
critical protections that we placed under H.R. 240.
    The improvements we have made--and we have made some in the 
legislation that was introduced last time--hopefully, will make 
our veterans' preference laws more applicable and more 
effective.
    Last April, I held a hearing to examine the state of 
veterans' preference in the Federal Government workplace. That 
examination showed us that veterans' preference had many 
problems in various Federal agencies, and also its compliance 
and effectiveness.
    We find that veterans' preference is often ignored or 
circumvented. Evidence also revealed a strong anti-veteran 
culture in the Federal workplace. For example, the General 
Accounting Office found Federal agencies much more likely to 
avoid hiring from a list of eligible candidates when a veteran 
entitled to preference headed the list.
    In short, sometimes bureaucrats overlook the requirements 
that we have in place, and often a veteran who was eligible for 
a position was not really allowed to adequately contend for 
that open job.
    We have also learned that new threats to veterans' 
preference have arisen. In particular, I am very concerned 
about the increased use of designer RIFs when agencies 
reorganize or conduct a reduction in force.
    These so-called designer RIFs place employees in single 
position competitive levels. This device ends up eliminating 
competition for positions at a particular grade level, and 
often undercuts veterans. In fact, designer RIFs turn the basic 
idea of a reduction in force upside down.
    Under the statute governing RIFs, employees are supposed to 
compete for retention according to rules that include 
preference for veterans. But these designer RIFs allow agencies 
to eliminate that competition and abuse the process by 
targeting specific individuals.
    One of our hearing witnesses described how a designer RIF 
placed him in a single person competition. Of 50 employees 
covered by the RIF, this Vietnam veteran, who had been awarded 
the Distinguished Flying Cross, the Bronze Star, and multiple 
awards of the Air Medal, was the only one downgraded.
    Compounding these problems is the fact of the lack of an 
effective redress system. In fact, the major veterans' service 
organizations say that this is one of our key issues and key 
areas that need revision. Both the American Legion and the 
Disabled American Veterans testified to the importance of 
improving the redress mechanism at last year's hearing.
    The Veterans' Employment Opportunities Act of 1997 
hopefully will cure that problem. It establishes what we 
consider to be an effective user-friendly redress system. 
Veterans could appeal alleged violations through an existing 
administrative remedy or before the courts.
    Our legislation also authorizes the special counsel to 
bring those who knowingly violate veterans' preference laws 
before the Merit Systems Protection Board for punishment that 
may include firing, suspension, or possibly a $1,000 fine. Such 
stiff penalties will ensure that the folks who do not want to 
pay attention to what we are saying, and I use the term 
``bureaucrats'' in this case, will make them really take 
seriously veterans' preference and veterans' rights.
    H.R. 240 also targets designer RIFs. It prevents Federal 
agencies from using such schemes to unfairly strip veterans of 
their right to compete for their jobs during a RIF. Veterans 
who are RIFed will also receive enhanced rights to other jobs.
    Also, I have targeted another practice that hurts many 
former service men and women. Most who serve in today's 
military are not entitled to veterans' preference, unless they 
receive a campaign badge. They have no advantage when applying 
for a Federal job. Worse, too often they cannot even apply. 
Instead, agencies restrict competition to their own workforce 
or to current Federal employees. My bill tears down some of 
these artificial barriers that have been built up and treats 
anyone who is entitled to veterans' preference or who served 
honorably in the armed forces for 3 years in what I consider 
fair terms.
    These individuals have performed a valuable service for our 
Nation. We should honor that service by allowing them to 
compete fairly and squarely for jobs.
    There are other provisions in this bill that are critically 
important to many veterans, and I will summarize them briefly.
    First, it will extend veterans' preference to certain jobs 
in the legislative branch, and in the judicial branch, and at 
the White House.
    Agencies will also be required to establish priority 
placement programs for employees affected by a RIF. And Federal 
agencies must give veterans' preference when rehiring 
employees.
    Another provision is the FAA will be required to apply 
veterans' preference in a RIF.
    And a further provision is that service men and women who 
serve in Bosnia, Croatia, and Macedonia will qualify also for 
veterans' preference.
    Veterans' preference, and I have said it before, is an 
earned right, not a gift. Veterans, who are such a hard-working 
and disciplined group, deserve this small boost.
    My family and I have long been concerned with their 
welfare. Many of you know that my brother served on the 
Veterans' Committee for many years, and this was one of his 
concerns. We just feel very strongly that we have an obligation 
to extend any little boost we can to our veterans' community 
and population.
    I am committed to expanding and protecting these job 
opportunities for the men and women who fought our Nation's 
battles, and preserved the peace, and protected our vital 
interests throughout the world. And a small thing that we can 
do is make this H.R. 240 the law of the land.
    In a minute, I will get into introducing our witnesses. But 
now I would like to yield with those comments to our ranking 
member, and recognize Mr. Holden from Pennsylvania.
    [The prepared statement of Hon. John L. Mica, and the text 
of H.R. 240 follow:]
[GRAPHIC] [TIFF OMITTED] T3102.001

[GRAPHIC] [TIFF OMITTED] T3102.002

[GRAPHIC] [TIFF OMITTED] T3102.003

[GRAPHIC] [TIFF OMITTED] T3102.004

[GRAPHIC] [TIFF OMITTED] T3102.005

[GRAPHIC] [TIFF OMITTED] T3102.006

[GRAPHIC] [TIFF OMITTED] T3102.007

[GRAPHIC] [TIFF OMITTED] T3102.008

[GRAPHIC] [TIFF OMITTED] T3102.009

[GRAPHIC] [TIFF OMITTED] T3102.010

[GRAPHIC] [TIFF OMITTED] T3102.011

[GRAPHIC] [TIFF OMITTED] T3102.012

[GRAPHIC] [TIFF OMITTED] T3102.013

[GRAPHIC] [TIFF OMITTED] T3102.014

[GRAPHIC] [TIFF OMITTED] T3102.015

[GRAPHIC] [TIFF OMITTED] T3102.016

[GRAPHIC] [TIFF OMITTED] T3102.017

[GRAPHIC] [TIFF OMITTED] T3102.018

[GRAPHIC] [TIFF OMITTED] T3102.019

[GRAPHIC] [TIFF OMITTED] T3102.020

[GRAPHIC] [TIFF OMITTED] T3102.021

[GRAPHIC] [TIFF OMITTED] T3102.022

[GRAPHIC] [TIFF OMITTED] T3102.023

[GRAPHIC] [TIFF OMITTED] T3102.024

[GRAPHIC] [TIFF OMITTED] T3102.025

[GRAPHIC] [TIFF OMITTED] T3102.026

[GRAPHIC] [TIFF OMITTED] T3102.027

[GRAPHIC] [TIFF OMITTED] T3102.028

[GRAPHIC] [TIFF OMITTED] T3102.029

[GRAPHIC] [TIFF OMITTED] T3102.030

[GRAPHIC] [TIFF OMITTED] T3102.031

[GRAPHIC] [TIFF OMITTED] T3102.032

[GRAPHIC] [TIFF OMITTED] T3102.033

    Mr. Holden. Thank you, Mr. Chairman.
    It is a great pleasure to be here today. And I commend you 
for holding this hearing and markup on H.R. 240.
    As a Nation, we owe a great debt of gratitude to our 
veterans for their fine service to our country. Many times, we 
have called on our military personnel to answer the call to 
duty and to help in times of need.
    The veterans' preference recognizes our obligation to those 
who have served this Nation proudly. The Congress has a 
responsibility to make sure that the original goals of 
veterans' preference are being met, and that veterans' rights 
are being protected. And I look forward to hearing the 
testimony today.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Tim Holden follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.034
    
    Mr. Mica. I think that Mr. Holden is going to make an 
incredible ranking member with short opening statements like 
that.
    Mr. Holden. Well, I was told to be careful about that.
    Mr. Mica. I will tell my staff to make mine a little bit 
shorter. So I apologize, but I got in words for everyone.
    I will turn now to our vice chairman, Mr. Pappas.
    Did you have any opening remarks?
    Mr. Pappas. No. I have a written statement that I would 
like to be included in the record.
    Mr. Mica. Without objection, it will be made part of the 
record.
    [The prepared statement of Hon. Michael Pappas follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.035
    
    Mr. Mica. Ms. Norton, did you have any opening comments or 
remarks? You were not with us for our first meeting, but you 
are most welcome, and we look forward to your participation on 
our panel.
    Ms. Norton. Thank you very much, Mr. Chairman. I do have a 
brief opening statement.
    I would like to thank you, Mr. Chairman, for calling this 
hearing and markup today on the Veterans' Employment 
Opportunities Act of 1997.
    This is essentially the same legislation that you 
introduced and that the subcommittee and the full committee 
approved in the 104th Congress, with modifications designed to 
address certain matters. The bill, of course, aims to bolster 
veterans' preference and increase Federal employment 
opportunities for our women and men who have served in the 
armed forces.
    May I essentially thank you, Mr. Chairman, for including 
elements of a bill that I had introduced in the last session of 
the Congress to require Federal agencies to establish priority 
placement programs for employees affected by a RIF. And you 
have included a section in addition that would require the 
Federal agencies to give veterans' preference when rehiring 
employees. This is a very important addition to the bill, when 
one considers that the Federal Government continues to 
downsize.
    The country has long recognized that whether in a voluntary 
or conscripted army, that serving one's country inevitably 
entails sacrifices. Among these are the loss of months or years 
when there could have been career advancement in the private 
sector. The least that the Government can do is to recognize 
this sacrifice in its own job pool.
    Veterans' preference allows the Government to reap the 
benefit of its own investment in military training, encouraging 
skilled military personnel who leave the armed services to 
enter the Federal workforce today. Indeed, at this time, there 
is a greater percentage of veterans in the Federal workforce 
than in the private sector.
    Veterans' preference also benefits women. And as more and 
more women enter the military, women are increasingly 
represented in the armed forces. Comprising approximately 
200,000 of the 1.5 million in active military service today, 
veterans' preference could potentially have a great impact on 
these women as they leave the military and seek employment in 
the Federal Government.
    Once again, I commend Chairman Mica for the bipartisan, 
participatory process that this subcommittee has engaged in to 
address concerns that were raised regarding this bill. I look 
forward to our markup this afternoon and our work on this 
subcommittee during the 105th Congress.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]
[GRAPHIC] [TIFF OMITTED] T3102.036

    Mr. Mica. Thank you.
    And I would now recognize the gentlelady and long-suffering 
member of this committee, Mrs. Morella.
    Mrs. Morella. I loved every minute of it, Mr. Chairman, or 
almost.
    I want to thank you for reintroducing this bill with its 
changes, and for holding this hearing today, and the markup 
following. Because this is an important piece of legislation, 
the Veterans' Employment Opportunities Act of 1997.
    As you indicated, Mr. Chairman, this bill has broad 
support. It passed this subcommittee in the last Congress, and 
it passed the House. And we did have two votes on it in the 
House. But unfortunately, the Senate failed to act on the 
legislation. Improvements since then have been made to the bill 
to ensure that postal workers are treated fairly.
    And I remember the testimony that we had in the last 
Congress. We had many veterans' organizations and individuals 
who testified. And, of course, one that stands out in my mind 
is John Fales, who founded the Blinded American Veterans 
Foundation, who is represented here today by Heea Fales, his 
spouse. But he and the others provided personal experience 
testimony, which is very valuable to this committee.
    So this bill would simply strengthen the requirement that 
veterans receive preferential treatment in obtaining and 
keeping Federal jobs. It would also establish a much-needed 
redress mechanism for veterans who are denied their employment 
rights. The contents of this bill are certainly deserved by all 
of our veterans, men and women alike.
    And I thank you.
    Mr. Mica. I thank the gentlelady.
    And I will recognize the gentleman from Texas, Mr. 
Sessions.
    Mr. Sessions. Mr. Chairman, thank you. I do have a few 
brief remarks, if I may.
    Mr. Chairman, it is a pleasure to be in front of these 
groups today, who are representing veterans across our country. 
And I would like to say that it is never inappropriate to stand 
up for the rights of these veterans.
    Sometimes, especially in a peacetime period that we are 
enjoying today in our history, it is easy to take for granted 
many of these many freedoms and sacrifices that each of these 
veterans have fought for.
    But we can never forget the contributions that the men and 
women of our military have given to our country, and that is 
what we are talking about today, their place in society and the 
jobs that they will have.
    The Veterans' Employment Opportunities Act of 1997 gives to 
those who have served our country needed appeals and the 
avenues for those cases which they have been denied the 
opportunity to work in the position for which they were most 
qualified. When veterans are not given the chance to prove 
their ability, justice must prevail.
    When I first read this legislation, I was concerned about 
the impact it may have on the Postal Service. Because of my 
unique position serving not only on this subcommittee and the 
Subcommittee of the Postal Service, many of my constituents 
voiced their opinions on this legislation.
    And Mr. Chairman, I want you to know that they were 
concerned about this legislation that would put veterans 
without postal experience in high postal positions. In other 
words, something that they may not have had a background for.
    And I was very heartened to receive from you, Mr. Chairman, 
that among other things stated that many jobs within the Postal 
Service, such as the Postmaster positions, require knowledge 
and skills that must and most often can be obtained only within 
the Postal Service.
    And I would like to say that there is nothing in this bill 
that will require anyone to hire an unqualified veteran with no 
postal experience for any job, meaning that you must be 
qualified if you want to try to qualify for these jobs.
    I would like to thank you for providing this letter to me. 
Because as I know and you know, the Postal Service has an 
outstanding record in hiring veterans. The Postal Service 
employs 258,510 veterans. In 1995 alone, the Postal Service 
hired 7,927. Of that 7,927, 6,033 had service-connected 
disability.
    This is an agency that I believe we can applaud and be 
proud of for not only their service to America, but also 
working with the veterans' community with distinction. And it 
is certainly one that I think needs to continue to improve its 
service to the American people. And we need to work with them.
    And I also want to thank you, Mr. Chairman, for your 
special consideration when we talk about the impact of this 
legislation to women. According to your letter to me, Mr. 
Chairman, the equal access provision in this bill will make it 
easier for women veterans to obtain Federal employment. So 
certainly, what we are talking about is not only people who 
have given up their time to our country, but also those people 
who might be minorities, and in this case specifically women.
    I applaud your bill, Mr. Chairman. I think that it 
addresses legitimate concerns that we have. And I want to thank 
you for sending this letter to me. And I would ask unanimous 
consent for that letter that you sent to me that was dated 
February 24th be submitted into the record.
    And with that, Mr. Chairman, I thank you for my time.
    Mr. Mica. Thank you, Mr. Sessions.
    And without objection, that document will be made part of 
the record.
    [The prepared statement of Hon. Pete Sessions and the 
information referred to follow:]
[GRAPHIC] [TIFF OMITTED] T3102.037

[GRAPHIC] [TIFF OMITTED] T3102.038

[GRAPHIC] [TIFF OMITTED] T3102.039

[GRAPHIC] [TIFF OMITTED] T3102.040

    Mr. Mica. I will also send a letter to Mr. Runyon. You 
should be entitled to at least two more postal facilities and 
quick delivery of your mail. That is in their mission 
statement, so I trust that it is going to happen.
    Mr. Sessions. Thank you.
    Mr. Mica. And thank you for your concern to make sure that 
those provisions are in the legislation.
    Today we have two panels. We are very pleased to welcome 
our first panel, and to welcome back the Honorable James B. 
King, Director and Director-to-be of the Office of Personnel 
Management, as I understand that he is being renominated by the 
President. We have enjoyed our working relationship. We 
probably agree 90 percent of the time, and then are very 
amicable on the other 10 percent. We achieved some milestones 
in Federal personnel management under your leadership and with 
the cooperation of our panel.
    So we congratulate you, and welcome you back. You have with 
you Mary Lou Lindholm, with the Office of Diversity in the 
Office of Personnel Management.
    Is she going to testify too, Jim?
    Mr. King. Mr. Chairman, Mary Lou Lindholm is also our 
Associ- ate Director for Employment. Her responsibilities 
include chairing our meetings with the veterans' service 
organizations. So she cov- ers two areas that I thought might 
be helpful to the committee.
    Mr. Mica. And she is also going to testify with you.
    And as customary, this is an investigation and oversight 
panel. So if you would both please stand and raise your right 
hand.
    [Witnesses sworn.]
    Mr. Mica. Let the record reflect that the witnesses 
answered in the affirmative.
    As is customary, we ask that full comments be submitted for 
the record, but that you summarize now and try to go under the 
5- minute rule.
    So with that, you are recognized and welcomed, Mr. King.

STATEMENTS OF JAMES B. KING, DIRECTOR, U.S. OFFICE OF PERSONNEL 
    MANAGEMENT, ACCOMPANIED BY MARY LOU LINDHOLM, ASSOCIATE 
    DIRECTOR FOR EMPLOYMENT, OFFICE OF PERSONNEL MANAGEMENT

    Mr. King. Thank you, Mr. Chairman. I would be totally 
disingenuous if I did not thank you for your help on the very 
difficult work that lay before us at OPM when you first arrived 
as chairman. I really would be totally disingenuous if I did 
not acknowledge that.
    And the former Chair, who was so helpful in the past, Ms. 
Norton, I also have to thank you during that first term. I 
really do not know how we would have done anything without your 
support.
    And you suggested, Mr. Chairman, it has been bipartisan. 
And above all, Mr. Chairman, I think sometimes you may even 
understate yourself. Fairness, I think, has been one of the 
things that has been the hallmark really of your term here.
    Mr. Mica. If you would be willing to repeat that to my 
wife.
    Mr. King. Mr. Chairman, I really thank you for the 
opportunity to state the Office of Personnel Management's views 
on the Veterans' Employment Opportunities Act of 1997, H.R. 
240, and to restate the Clinton administration's firm support 
for the principle of veterans' preference, which Franklin 
Roosevelt embodied in the Veterans' Preference Act of 1944.
    The administration strongly supports veterans' preference, 
and the enhanced employment opportunities it has provided for 
our Nation's veterans. We at OPM take pride in the record that 
this administration has achieved in administering our veterans' 
preference.
    OPM's most recent workforce figures demonstrate that even 
in a time when the Government is growing smaller, our Nation is 
keeping its promise to those who have worn its uniform.
    Our figures show that in 1990, 1991, and in 1992, the 
percentage of veterans among Federal civilian full-time 
permanent new hires averaged 18.5 percent.
    In 1993, 1994, and 1995, the percentage of veterans among 
Federal civilian full-time new hires was 31.1 percent, an 
increase of more than 50 percent over the previous 3 years.
    These numbers represent real men and women, about 14,000 of 
them in 1995, who joined our civil service, largely because of 
their own skills and talents, but also because the veterans' 
preference law is doing the job that it was designed to do.
    For example, in 1995, 47.7 percent of the 24,846 men aged 
20 or older, who were hired for full-time permanent jobs, were 
veterans. That is more than double the 22.4 percent of men over 
the age of 20 who are already in the national workforce, who 
are veterans.
    Under existing law, veterans have also had protection 
during reductions in force or RIFs. And we believe that these 
have worked well to protect veterans during the ongoing 
downsizing of Government.
    The issue before us today is new legislation intended to 
further strengthen veterans' preference. Strengthening 
employment opportunities for veterans is a worthy goal. And I 
would like to thank you, Mr. Chairman.
    During recent discussions with the veterans' service 
organizations, we questioned whether our goal of retaining the 
maximum number of veterans during a RIF could be achieved by 
this legislation without complicating an already complex and 
cumbersome RIF process.
    OPM put forth for their consideration the idea of simply 
removing the grade limitation on bumping and retreating for 
veterans only. I had hoped that the proposal would be seen as a 
way to retain the most veterans during a RIF without the 
additional complexity that may result from the proposed 
legislation.
    And I do support strengthening the veterans' preference. 
However, I would also note that any change to RIF procedures 
should allow agencies adequate time for implementation. Since 
RIFs may be underway should the bill be enacted in its present 
form, agencies will need this phase-in period.
    Otherwise, they would have to stop ongoing RIFs and start 
over again, causing enormous disruption and increased expense. 
But in many cases, it would mean an even greater job loss, and 
therefore more RIFs.
    We will work with the Congress to address this and any 
other concerns that you may have.
    Mr. Chairman, I would be glad to answer any questions you 
may have about this legislation, and OPM's role in 
administering it. I thank you very much for permitting me to be 
here today.
    [The prepared statement of Mr. King follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.041
    
    [GRAPHIC] [TIFF OMITTED] T3102.042
    
    [GRAPHIC] [TIFF OMITTED] T3102.043
    
    [GRAPHIC] [TIFF OMITTED] T3102.044
    
    Mr. Mica. I thank you.
    And you are not going to make an opening statement?
    Ms. Lindholm. No, I am not.
    Mr. Mica. You are just available for questions?
    Ms. Lindholm. Right.
    Mr. Mica. Well, I have a couple of questions. First, we 
have gotten from your agency's Office of Diversity, I guess the 
latest list of the employment of veterans in the executive 
department.
    Are you aware, either Mr. King or Ms. Lindholm, of what the 
civilian labor force percentage of veterans being hired are in 
the private sector?
    Mr. King. The last report that I had was I think it was 22 
percent as opposed to now 27.5 percent in the latest figures I 
have.
    Mr. Mica. Well, one of the things that concerns me is that 
even with some existing veterans' preference, if you look at 
our Federal agencies, and I have a copy of a table that was 
produced by your office, is that several of the agencies fall 
below that percentage: the Department of Education, the 
Department of HHS, the Department of Treasury, and other 
executive agencies. But many of these agencies are far below 
even the civilian workforce in percentages of veterans' hiring.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.045
    
    Mr. Mica. Is there any reason for this that you have seen?
    Mr. King. We have done the analysis, and we have seen both 
figures. I could not respond regarding the record of specific 
agencies.
    Ms. Lindholm. There is nothing that we have come across in 
the reports that would allow you to identify specifically what 
the barriers were in any particular agency.
    Mr. Mica. Well, the other thing I am wondering, Jim, is if 
we might be able to get cooperation of your agency right from 
the get-go here, and ask them to voluntarily look at how they 
can increase veterans' employment, because these are some 
pretty dismal figures for some of our key Federal agencies. So 
that might be one thing we could do before we get legislation 
in effect, but it would be done on a voluntary basis.
    Would you be willing to work with us on that?
    Mr. King. Surely.
    Mr. Mica. Maybe we can do something jointly that we are 
concerned with in a positive vein.
    Another thing that concerns me, and was just brought to my 
attention, and it is sort of like discrimination. You know, 
everybody knows that it goes on, and we detest it, and we have 
laws against it. But it does exist.
    I got a letter from a Vietnam veteran dated February 6th. 
It takes a little while to get to me, but I did eventually get 
it. This veteran was working in the biological research 
division of the USDA, which has been undergoing a number of 
changes.
    But what he brought to my attention was very disturbing. He 
said that he was and some other folks were called in as field 
station staff members to a meeting in Davis, CA. ``We all met 
with the U.S. Fish and Wildlife Service personnel staff.'' And 
the individuals from the personnel branch of the Fish and 
Wildlife Service gave them an informal briefing on how to avoid 
giving veterans any preference.
    Let me quote what he says here. ``This is what these 
representatives said. `We will tell you how not to hire a 
veteran, how to get rid of veterans, and how to avoid facing a 
5 to 10 point veteran in hiring.' ''
    And then they asked them not to let the word out on this at 
this particular meeting, and then went on and explained how to 
run job announcements to avoid, partially, veterans. ``You can 
run a job announcement for the last 2 weeks before the job 
announcement closing date, and use the excuse of checking the 
DD-214 or losing any other pertinent piece of paperwork that 
did not arrive before job placement.''
    They went on to talk about reduction in force, and how they 
get around reduction in force rules, and these are the 
personnel folks from Fish and Wildlife. ``Reduction in force 
rules in general terms can be manipulated.'' I will not read 
the rest of it--about how you manipulate the rules to the 
disadvantage of veterans.
    This is very disturbing to me to get this, but it seems 
pretty reliable. We need to be looking at this carefully.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.046
    
    [GRAPHIC] [TIFF OMITTED] T3102.047
    
    [GRAPHIC] [TIFF OMITTED] T3102.048
    
    Mr. King. I would like to have a copy of that. You know, we 
have had 31 of these kinds of situations come before us in the 
past 2 years, and every one of them we have been able to solve 
and remedy, and make corrections, and take action.
    If it would not jeopardize any confidentiality, we would 
very much like to have that, so we can go right to the 
organization.
    Mr. Mica. We can have all of the laws on the books and pass 
new laws, and we will have folks subverting the law and the 
intent. We are the employers, and we need to make sure that the 
employees are cooperating in this effort.
    So I call this to your attention, and ask for your 
cooperation.
    Mr. King. We will look into this, and we will report back 
to the subcommittee.
    Mr. Mica. I have no further questions or comments.
    Mr. Holden, you are recognized.
    Mr. Holden. Thank you, Mr. Chairman.
    And thank you, Mr. King, for your testimony.
    Can you outline the types of preferences that veterans get 
in the civil service, and explain which veterans qualify for 
them?
    Mr. King. We have the list.
    Ms. Lindholm. There is a list that actually identifies the 
eligibility criteria, and we would certainly be glad to submit 
it to you. It is pretty lengthy.
    Mr. King. We can go through it, if you wish.
    Mr. Holden. If you could submit it for the record, so we 
could review it, I would appreciate that.
    Ms. Lindholm. Sure.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.049
    
    [GRAPHIC] [TIFF OMITTED] T3102.050
    
    [GRAPHIC] [TIFF OMITTED] T3102.051
    
    [GRAPHIC] [TIFF OMITTED] T3102.052
    
    Mr. Holden. And could you describe for us the manner in 
which you routinely have been conducting outreach to various 
veterans' organizations?
    Mr. King. We meet with the major national veterans' service 
organizations on a quarterly basis. We sometimes meet 
informally in between, and we talk with each other on the 
phone. And Ms. Lindholm is the one who chairs the meeting, but 
the agenda is set jointly during those meetings.
    I make it a point to attend virtually all of them. I 
abbreviated my attendance at the last meeting, because, quite 
frankly, I was not feeling very well, and I did not want to 
infect the group. They are friends. So I left a bit early. But 
we did go over the agenda item, including discussion of the 
legislation before us.
    Mr. Holden. Just one final question, Mr. King. I believe 
the veterans groups will testify that Federal managers do not 
understand the responsibilities with respect to veterans' 
preference.
    What if any information or training are managers provided 
with on this subject?
    Mr. King. That is on an agency-by-agency basis. And what we 
can do is every manager should be trained. I think that one of 
the things that is worth saying is that right now, because this 
has been brought to our attention, we are in the process--we 
are in the final process--of publishing a handbook called Vet 
Guide, which will be a handbook for all of the veterans' 
appointing authorities. And it will be a quick reference guide, 
quite frankly, to assist Federal agencies in accurately 
determining applying veterans' preference.
    Because we view it in our agency as core to merit 
principles. So when I talk merit principles, veterans' 
preference, it is a part of that. It is not a separate section. 
It is right in there.
    So I feel very strongly about supporting veterans' 
preferences as part of our merit system. I view it as an earned 
right. It is not simply an entitlement. I hope that I am 
expressing the agency and the Government as a whole. So that 
anyone who is inconsistent with that particular position, I 
believe is inconsistent with both the intent and the spirit of 
the laws and where we should be at.
    Mr. Holden. Thank you, Mr. King.
    No further questions, Mr. Chairman.
    Mr. Mica. Thank you.
    Mrs. Morella, you are recognized for questions.
    Mrs. Morella. Thank you.
    Again congratulations, Dr. King, on your reappointment.
    Mr. King. Thank you.
    Mrs. Morella. I just wanted to pick up on a line from your 
testimony, where you said that, ``OPM put forth for their 
consideration the idea of simply removing the grade limitation 
on bumping and retreating for veterans only. I had hoped the 
proposal would be seen as a way to retain the most veterans 
during a RIF without the additional complexities that may 
result from the proposed legislation.''
    What are the complexities of the proposed legislation?
    Mr. King. On that one, I actually have a list, if you will 
go through it with me as I look at it first, so I can answer 
the question in reverse. What I referred to quite frankly was 
that with these we had a clean mind when we lifted any of the 
bump and retreat, which would optimize. And there was some 
question, I think, by a number of groups, all legitimate.
    What we did so, I would like to say, is we started with the 
same objective and the same goals. How do we optimize the 
opportunity for veterans at a time of downsizing to retain 
their jobs. That was the bottom line. So I put that one forward 
quite frankly in good faith, merely to say I am not starting 
from any previous predetermined position any bump or retreat 
from 15 to a 1. That would be up for discussion, as far as I 
was concerned. And that would simplify the whole process.
    And the service organizations speak for themselves. But I 
also indicated at the same meeting that I would support 
anything that came forward in any manner that they felt would 
work toward the goal and the objective. And it is quite 
apparent that nowhere are we at loggerheads in relation to 
that. So I feel totally comfortable.
    Part of it is that bumps outside of our competitive areas 
would cause RIFs quite frankly in agencies that are not facing 
shortages of funds or work. So the determination in one area 
could move into another agency or another area of 
responsibility that would ordinarily not be affected, because 
this opens up much broader.
    There could be a productivity loss. Veterans could be 
placed in jobs obviously where they need more training to be 
effective. And that is stated and that is understood in the 
bill, but it goes to 150 days. And the increased training and 
the cost to the agencies.
    But we are willing to accept these costs as part of our 
commitment as a public agency. And we understand that. But we 
want you to understand what the implications are.
    This is also an area where people are making additional 
subjective decisions. Do you believe this individual can be 
better trained, et cetera. There is a lot of area of 
subjectivity. And we have generally found that where people are 
making judgments, in that sense you can get into a great deal 
of difficulty.
    Again, we were looking at the simplest type, rather than 
going through the entire organizations. And I think really that 
the potential cost, which nobody knows right now, and the 
delay. Because as you know, every time you set a RIF, if 
anything changes, and you have to reissue and rework it.
    I really had Ms. Lindholm with me today, because she is one 
of few people who is a personnelist, who is also in her own 
agency had to work from top to bottom. And what you hear many 
times, for examples, that managers make determinations.
    First of all, I think I should establish the fact that our 
veterans make up about 38 percent of all managers in our 
Government. So it is not that as a veteran that once you become 
a manager that somehow you turn your back. I would like to 
think that that is not true. But there is a substantial 
managerial class for our veterans.
    But even in this, what is the determination that is going 
to be made at each step. The personnel office does that. What 
you do as a manager is identify jobs that no longer need to be 
done, and the bump and retreat goes from there. And right now, 
virtually every agency I know uses a computer program.
    Ms. Lindholm. Most of them do.
    Mr. King. Which any agency of any size does that. So they 
can reprogram and reset. It is much more complex sort of 
management item. And the front line managers and even the more 
senior managers have no idea what it looks like. It is all done 
by the personnel office.
    Ms. Lindholm. Right. And I think that it is important to 
note that throughout a RIF notice period that those 
determinations change. So if an individual retires or if there 
is any movement in that competitive area, you have to 
continually rerun the RIF. And that is the personnelist who 
would be rerunning it. So it is very difficult to know what the 
outcome is going to be of a RIF, when you reach the effective 
date.
    Mrs. Morella. Mr. King, you mentioned that there could be a 
larger and longer phasing period.
    Mr. King. Our concern was that you give us enough time. I 
am operating on the assumption that the legislation will move 
forward. Then we are saying how do we make it work. My interest 
is bottom line, how do I get this to actually work and affect 
the people we are concerned about. And what I want to do is be 
certain we have enough time that we can do the rulemaking, 
which is a minimum of 90 days. And then in other areas where 
other agencies have to give up for this is we will take some 
time.
    I do not know, and I am not about to predict, what time an 
agency would take for this. I would like to think that they may 
be asked and they could share that with you as to what they 
feel they need for lead time.
    I know that the Department of Defense is already giving you 
an idea what they believe they would need, and maybe there are 
other agencies that are affected that would share that with 
you.
    I am using 90 days. Please do not hold me to it, but we 
will work hard to come in within that 90 day window to make 
sure we are ready to go with rulemaking and everything that is 
required, so it can get started.
    Mrs. Morella. So you can make this bill when it becomes law 
work?
    Mr. King. We will try. The question is can the agencies 
respond to the final rulemaking we put out. And I am just 
saying give them enough time. As I am saying, when we are 
bringing in 47 percent almost of our eligible people who are 
applying for jobs who are veterans, there is a real effort.
    I know we are running into situations and they are real 
situations with real people where they have not been treated 
fairly. We have identified some of those, and they are real. So 
I am not in any way minimizing this. But I think that you have 
to give us a certain bit of leeway, because I think that there 
has been a bridge of trust established with the hiring that has 
been done. I am talking about new hires.
    It is quite apparent when you say it is 47 percent. And by 
the way, 96 percent of your veterans are male right now. Now 
the mix is changing. It is about 86 right now, I think. But as 
far as the available pool of talent coming in, we are drawing 
down, and it seems that a good job is being done.
    Now we are concerned about two other things. First on the 
hires, but second on RIFs. How do we retain people and maintain 
the same commitment to fairness and to job stability that we 
did to entry, and to maintain all of those standards together.
    What we are saying is, give us an opportunity to get the 
training in, and to make sure that gets done, and that it is 
done properly. But I am not saying give us some excessive 
amount of time. I believe that it can be done in a reasonable 
period.
    Mrs. Morella. Thank you, Dr. King.
    Mr. Mica. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. King, I am intrigued by your list indicating the 
percent of veterans by department. One sees in the departments 
that are related to the military far larger numbers than other 
departments.
    Would you say this occurs largely because of the preference 
of veterans themselves, because of greater receptivity of the 
agencies, or some other reason, particularly in light of the 
fact that you have this high percentage of situations, 71 
percent according to the figures I have, where there is 
circumvention of the law, where the veteran is at the top of 
the civil service register?
    Mr. King. Well, first of all, I think that the veterans, as 
anyone else, do not stray far from home. In some cases, people 
are known. They are known quantities. And they are leaving the 
service, and they are recruited back in as civilians.
    Ms. Norton. The departments themselves reach out to recruit 
people?
    Mr. King. Yes. And by the way, I am delighted that they do 
it. And some of it is retraining. But also a colonel so-and-so 
knows that they are looking in the particular area that these 
people are going on, that they are looking for somebody, and 
they are aware of the job notice. And say we have an ideal 
person coming out of the service now, and you really ought to 
look at them.
    There is a network that is established. And also, I think 
in many cases, and I would include ours, that it is a question 
of where the specialty lies, too. But I do not know. That is 
why I say it is interesting to see the spread. That is why I 
brought it in. It is interesting to see the spread. I do not 
have any definitive answers.
    Mary Lou, what has been your experience over the years with 
this?
    Ms. Lindholm. Well, I think your point about the high 
number of military retirees. I believe the number is running 
almost 50 percent these days of the hires, the new hires, into 
DOD are military retirees. And we can certainly check and 
verify those numbers, and submit them for the record. But I 
think that Jim's point is correct, that it is the recruitment 
sources that they have identified.
    Mr. King. And it is fascinating, as you noted. For example, 
the Department of Transportation has a very high level of 
veterans.
    Ms. Norton. They look like they are matching themselves. 
This may not reflect poorly on the other departments. It 
reflects the network, and it reflects the particular skills 
that people are trained for in the service, and are reused in 
civilian life, all of which means, of course, that the Federal 
Government is getting a bigger bang out of its initial buck, 
because it has invested very heavily in training for these 
veterans. And that training probably reflects itself better 
where we see these numbers than it would, for example, in 
Education, or in Labor, or in HHS, where we see the numbers 
lower.
    I am struck, however, in your testimony by the difference 
between employment of veterans in the Federal Government and in 
the private sector.
    Would that be for the same reason? You had twice as many, 
or approximately twice as many by percentage, going into the 
Federal sector as going into the private sector.
    Mr. King. What I have in the private sector is where we are 
looking at a stable thing. We do not know what the private 
sector hires as a percentage.
    Ms. Norton. The national workforce without knowing.
    Mr. King. That is correct.
    Ms. Norton. So it might not be all private.
    Mr. King. I am using the dynamic side where people are 
seeking work. It is interesting to know that people who have 
jobs, about 22 percent out there in the public sector, which is 
a pretty good barometer of what is there, that the hires--and 
by the way, it is interesting to note that the cadre of the age 
20 to 34 is about 4.7 percent of the population in the private 
sector.
    And when you see a very substantial number of veterans that 
we bring into the military when you look at the cadre of the 
age group, it is that a very substantial cadre of veterans from 
the 50 to 65 that if you were looking at a chart, that is the 
big swell. It is very, very substantial. Almost half of the 
veterans, better than half, are in that category.
    What we are seeing now is a shift within Government of 
higher and higher percentages of Vietnam veterans being the 
veteran who is presently employed in the Government. There is a 
wide range, but there is a definite shift away from World War 
II and Korea, because of the age and retirement. Plus the 
Government retires at an earlier age as a rule on average than 
the private sector. People leave the Government earlier than 
they do in the private sector in gross numbers.
    Ms. Norton. The figures in your testimony is you refer to 
hires and not promotion, do they not?
    Mr. King. Pardon?
    Ms. Norton. The figures in your testimony reflect hires and 
not promotions?
    Mr. King. That is correct.
    Ms. Norton. Would you talk about promotion, where veterans' 
preference also comes into play?
    Mr. King. Let me see what I have in the numbers. Let me 
just check. I was just looking at them.
    Ms. Norton. Do the ratios continue in the way that we find 
them in the hires?
    Mr. King. We find, for example, 10 percent of a gross 
figure of 27.5 percent veterans. It is about 38 or 37.9 percent 
on managers or in the supervisory category. We have various 
categories that we are running through right now. It is almost 
over-charted, please forgive me.
    Ms. Norton. I am not actually sure that it breaks out 
promotions.
    Mr. King. I do not have promotions per se. We can get you 
the positions that they presently hold, which would indicate 
promotions.
    [The information referred to follows:]

                      PROMOTION RATES FOR VETERANS

    There were 278,680 promotions in the Federal Service in FY 
1995. Veterans accounted for 58,182 of these promotions, or 
20.9 percent. The percentage of promotions going to veterans 
ranged from a high of 35.2 percent in Air Force to 7 percent in 
HHS and generaly paralleled the extent to which agencies hired 
veterans.

    Ms. Norton. Well, promotions are interesting. Because it is 
in promotions that you have competing. You really do have a 
more difficult situation. People coming in and being hired for 
the first time is an easier situation than when two people have 
done good work, and one may have done considerably better work 
than another. And then veterans' preference comes into play.
    Mr. King. At the end of the day, if you end up with 38 
percent of your positions, your leadership positions, being 
held by veterans that we can document, they obviously are being 
promoted. And they are being promoted in disproportionate 
numbers to the number in the workforce.
    But I would like to say, if I could, whatever we are doing, 
the real issue is can we do more. And we believe we can, and we 
believe that this legislation will help us to do more. And that 
I think is what your bottom line is, and the committee's bottom 
line is, and we share that.
    Ms. Norton. Thank you very much.
    And thank you, Mr. Chairman.
    Mr. Mica. Thank you, Ms. Norton.
    Mr. Sessions.
    Mr. Sessions. Thank you.
    Dr. King, have you had an opportunity to see this letter 
from John W. Cox yet, were you just given that?
    Mr. King. It was just given to me, sir.
    Mr. Sessions. Have you reviewed it before today, sir?
    Mr. King. No, sir.
    Mr. Sessions. OK. I would like, if I could, to just take a 
minute, Mr. Chairman, and look into at least just part of this 
letter. I would like to direct you to where it says a Vietnam 
veteran in the Government, the last paragraph.
    It says, ``The other situation has to do with veterans 
already in government. The reduction in force rules they stated 
are general in terms and can be manipulated. In other words, 
the way that I understood their explanation is the personnel 
office could give a RIF action that either segregates the 
workers in selective job positions or a blanket RIF that would 
cover the way that the regulations were written for in the 
first place.''
    Specifically, my question is can you please discuss what 
this means, and is there something that is a unique or single 
person competitive level?
    Mr. King. There is a single person competitive level. In 
many cases, we see that is of advantage to the individual in 
it.
    Mr. Sessions. Advantage to what?
    Mr. King. For the individual who is in that single 
category. In many cases, it is in their interest.
    Mr. Sessions. What is this, and does it mean single person, 
or does it mean job title, what does this relate to, and how 
many single--because evidently, there is a competitive 
advantage in a RIF situation.
    Mr. King. Sometimes it can be, sir, and sometimes there is 
not.
    Mr. Sessions. Let me allow you a few minutes. I think you 
see the area that I am going in.
    Ms. Lindholm. Yes. Actually, I do not see how any 
individual could say that even before you are ever even running 
a RIF and you have ever established your retention registers 
you would be making some of those statements.
    But the point is that when you are starting to run a 
reduction in force, you look at how your positions are 
classified, and your occupational series. In most cases, your 
competitive levels are determined by the series.
    But there are some classification series that are so broad, 
such as the ones in the 300 series, that you would look and 
say, how do you group these positions in such a way that the 
duties are interchangeable, that anyone in that competitive 
level could do any person's job in that competitive level. And 
that is how you make those determinations.
    Mr. Sessions. As to whether it would be considered unique?
    Ms. Lindholm. That is right. And it is very, very 
specialized. Someone who has scientific, that is usually you 
see a lot of it, that they have to have a lot of scientific 
expertise that only one individual perhaps has that kind of 
specialized position at that point. That would create the 
situation for a single competitive level.
    But as Jim indicated, that is only for the first round of a 
reduction in force. And even if you identify that single 
competitive level position as one to be abolished, you then 
have to go into your second round of reduction in force, which 
means that you start applying your bumping and retreating 
rights. So you do not know how it is going to fall out after 
that.
    Mr. Sessions. Have you received any comments similar to 
this within your own evaluations and within your own business 
and feedback from managers or from other groups that this is a 
problem?
    Ms. Lindholm. You mean believing that some agencies are 
actually trying to manipulate, according to this statement?
    Mr. Sessions. Believing, as it says here, in selective job 
positions, in other words allowing that?
    Mr. King. I heard that in my own agency when we were 
RIFing. We downsized our agency about 46 percent. And a lot of 
it was attrition, and a substantial amount by RIFs. And we were 
told time and time again that this was being done selectively 
and so forth. And I was very curious, and that is when Mary Lou 
and I worked together very closely. As I said, she has the 
hands-on side.
    Once it started, it was like a ball on a roulette wheel. If 
you can really predict what slot that is going into, you can 
become a millionaire. You could do the same thing in our 
business. If you could really predict how a RIF runs. I do not 
think you can predict it. I have never had a prediction on a 
real RIF.
    Mr. Sessions. Not even a manager.
    Do the RIFs originate only from Washington, DC?
    Mr. King. No. They can originate----
    Ms. Lindholm. In a community.
    Mr. Sessions. Local management.
    Mr. King. No. Local management determines the jobs. The 
personnel people work the RIF. They are separate.
    Mr. Sessions. So the local management determine the RIF.
    Mr. King. They determine the jobs that are to be closed, 
that would no longer be necessary. And the individual holding 
that job then with the floor being taken from under them. But 
they have the right at that time to either bump or to retreat. 
And they move up or down, or horizontally or vertically, 
horizontally or in a downward pattern. And they can take 
another job.
    The person getting the RIF notice may not be the person 
going out the door. I may be legally RIFed, but I have standing 
with a number of incremental things. It is a mathematical 
equation, basically, that makes the determination of who leaves 
us.
    Ms. Lindholm. And I think what you will find is that 
management identifies the positions that are excess. And if, 
for example, they have five accountants, and they say that they 
can do the work with one less accountant now, then they just 
identify an accountant, for example, Grade 7 is the position 
now they are going to determine is excess. From then on they 
have no idea which of the five are even going to be identified 
as the low person on that retention register, who would start 
the reduction-in-force process.
    Mr. King. And that person who, let's say, is removed, and 
they lose their job, they may have rights to permit them to run 
into another department where they bump someone else. And they 
stay there, and that other person starts to bump or retreat. 
That is what we are saying. It is a series of bumps and 
retreats as to who actually leaves us. You may have anywhere 
from 6 to 10 people who are affected on one job.
    Mr. Sessions. Have veterans expressed a specific problem 
with this, and have those been addressed?
    Mr. King. I know that in a number of cases, and I believe 
that testimony was given here, where veterans had some 
questions, because veterans have gone out the door. They have 
lost their jobs. And there is no guarantee under any 
legislation I have seen, but they are four times better off 
than non-veterans.
    In some places, and I know the Chair is very sensitive and 
aware of this, the U.S. Geological Survey, where there were 
RIFs, and there were a number of comments made. But veterans 
were disproportionately impacted as far as retention goes than 
non-veterans. Some veterans still went out the door, and that 
is part of the question.
    What I think this legislation attempts to do, sir, is to 
try and still reduce that further. But there is nothing that I 
have seen that would stop it outright, unless you gave absolute 
preference, under no circumstances is anyone removed from a 
job.
    Mr. Sessions. Thank you, Dr. King.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank our panelists today.
    Did you have something else?
    Mr. King. Just one thing, Mr. Chairman. I know during these 
hearings that you have always looked for perfecting language. 
But I was just a little concerned about the standards that you 
have in there for reporting. You mentioned, as you did in your 
opening statement, sir, about both the Congress, and the 
judiciary, and the executive, the White House, having a 
methodology and reporting.
    What I noticed in the legislation is that there seems to be 
a lower standard for judges, and Members of Congress, and the 
White House. And I was wondering if we were going to equalize 
that in the legislation, sir. And if that was an oversight, the 
committee might want to consider it.
    Mr. Mica. Well, we have met with our good friends in the 
judiciary, and they have some particular concerns and a 
particular manner in which they are required under the 
Constitution to conduct themselves. And the same thing for the 
legislative branch, which I learned a little bit about. So 
there is some uniqueness to each of the branches and some 
constitutional requirements, believe it or not.
    What we have tried to do is take the intent. And the intent 
is that all things being equal, we want to give our servicemen 
and women, who have served the country honorably, some 
advantage in the Federal workplace, whether it be the 
legislative, the judicial, or the executive branch.
    And they may have to go about it in slightly different 
terms, because of some of their constitutional requirements, or 
requirements of their job. But our intent is what we want to 
see carried out.
    The other point that I wanted to make to you, Mr. King, and 
others is that we have legislation that we hope to mark up here 
today. We have tried to work from the end of the last session 
to today to improve the legislative language to meet any 
concerns. If there is something that needs to be flexible due 
to a particular requirement, we are willing to do that. But it 
is to get to that intent.
    So we welcome your additional comments. The markup today 
should occur just a little later on. This is not by any means 
the end of the process. And we will welcome that step until we 
can conclude with an agreement with the Senate.
    Mr. King. Thank you so much, Mr. Chairman.
    Mr. Mica. And thank you. We thank you both for coming.
    I would like to call our next panel. Our second panel is 
Emil Naschinski, who is the director of the National Economics 
Commission of the American Legion. Mr. Charles L. Calkins, who 
is the national executive secretary of the Fleet Reserve 
Association. Sidney Daniels is the director of the National 
Veterans' Employment Assistance Service of the Veterans of 
Foreign Wars. And Mr. Larry Rhea, deputy director of 
legislative affairs for the Non-Commissioned Officers 
Association.
    I believe for the record that all of the witnesses and 
organizations have complied with Rule XI of the House 
certification of non-receipt of Federal funds. We will make 
that part of the record.
    Again, I would like to welcome you here today. And as is 
customary, it is necessary to swear you in as this is an 
investigations and oversight panel.
    [Witnesses sworn.]
    Mr. Mica. Welcome. We try to encourage that you submit 
lengthy statements which will be made part of the record, but 
ask that you summarize now, and we will impose a 5-minute time 
limit. We have a large panel here today.
    I will recognize Mr. Emil Naschinski, director of the 
National Economics Commission of the American Legion.

  STATEMENTS OF EMIL NASCHINSKI, ASSISTANT DIRECTOR, NATIONAL 
ECONOMICS COMMISSION, THE AMERICAN LEGION; CHARLES L. CALKINS, 
NATIONAL EXECUTIVE SECRETARY, FLEET RESERVE ASSOCIATION; SIDNEY 
  DANIELS, DIRECTOR, NATIONAL VETERANS' EMPLOYMENT ASSISTANCE 
   SERVICE, VETERANS OF FOREIGN WARS; AND LARRY RHEA, DEPUTY 
   DIRECTOR, LEGISLATIVE AFFAIRS, NON-COMMISSIONED OFFICERS 
                          ASSOCIATION

    Mr. Naschinski. Mr. Chairman, and distinguished members of 
the subcommittee. The American Legion appreciates having this 
opportunity to share its views on H.R. 240, the Veterans' 
Employment Opportunities Act of 1997.
    Before commenting on the status of veterans' preference and 
the provisions of H.R. 240, the American Legion would like to 
take just a moment, Chairman Mica, to publicly thank you for 
your efforts to eliminate the flaws that currently exist in our 
veterans' preference statutes. We believe that H.R. 240 will 
correct those deficiencies, and we look forward to working with 
the subcommittee to ensure enactment of this important 
legislation.
    Congress enacted veterans' preference in 1944 to address 
the readjustment needs of men and women who had served their 
country during a time of war. It was also designed to assist 
war veterans in regaining the lost ground that their civilian 
careers had suffered as a result of military service.
    In the beginning, the Federal Government gladly complied 
with the provisions of the new veterans' preference law. 
Unfortunately, however, as the years passed, the memory of war 
faded, and some of America's concern for fulfilling her 
obligation citizen soldiers. Today, the provisions of our 
veterans' preference laws are for all intents and purposes, 
meaningless.
    One of the reasons for this is that unlike women and/or 
minorities, the Federal Government never developed any 
``goals'' or ``time tables'' for the recruitment of veterans. 
As a result, there was, and is, very little incentive for 
agencies to hire veterans.
    Another reason is that under affirmative action, women and/
or minorities are protected from discrimination by the rules 
and regulations of the Equal Employment Opportunity Commission. 
If a person covered by EEOC feels that he or she has been 
discriminated against in hiring, promotion, or retention, they 
may file a formal complaint. Unfortunately, the same protection 
is not afforded to veterans because veterans' preference is an 
earned right and not an affirmative action program.
    Because of that lack of accountability, many Federal 
managers have routinely discriminated against veterans. Section 
8 of H.R. 240 will remedy that problem by making it a 
prohibited personnel practice to knowingly discriminate against 
veterans. It will permit the special counsel to bring 
disciplinary action before the Merit Systems Protection Board 
against any Federal employee who knowingly violates veterans' 
preference laws. The American Legion believes that this 
amendment to the law is long overdue.
    While the American Legion does not oppose increasing 
employment opportunities for women and minorities, we do object 
to the fact that all too often that goal has been accomplished 
by denying veterans their rights under the veterans' preference 
laws. The American Legion supports H.R. 240, because it will 
provide an effective, efficient, and user friendly redress 
mechanism for veterans' whose rights have been violated.
    While the American Legion fully supports the provisions of 
H.R. 240, Mr. Chairman, the American Legion would like to 
recommend that the subcommittee consider legislation or an 
amendment that would require Federal agencies to track and 
report the number of preference eligibles that are hired in the 
Federal system, as opposed to all veterans. With all due 
respect to Mr. King and our colleagues at OPM, the American 
Legion believes that if Federal agencies and the administration 
were to track and report the number of preference eligibles 
hired as opposed to all veterans, then the number would 
demonstrate an unsatisfactory record with regard to veterans' 
preference.
    The American Legion also supports H.R. 240, because it will 
prevent unfair personnel practices such as the creation of 
single-person competitive levels for RIF purposes and will 
enhance a veterans' chance of finding another job should he or 
she be forced from the Federal workforce.
    In closing, the American Legion would like to respond to a 
couple of criticisms that we often hear about veterans' 
preference. First, veterans' preference does not discriminate 
against women and minorities. It is completely neutral with 
respect to veterans' gender and ethnicity.
    Second, a large percentage of preference eligibles are 
women and minorities. In fact, the percentage of minorities 
serving in the military today is double that of their 
percentage in the civilian population. Also, approximately 20 
percent of the veterans who became preference eligibles because 
of their service in Desert Storm were women.
    Another false assumption that many Federal officials have 
is that veterans' preference prevents them from hiring the most 
qualified person for any given job. In truth, veterans' 
preference only comes into play when the veteran is completely 
qualified for the position for which he or she is applying.
    Chairman Mica, that concludes the American Legion's 
statement. Again, thank you for the opportunity to comment on 
H.R. 240.
    [The prepared statement of Mr. Naschinski follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.053
    
    [GRAPHIC] [TIFF OMITTED] T3102.054
    
    [GRAPHIC] [TIFF OMITTED] T3102.055
    
    [GRAPHIC] [TIFF OMITTED] T3102.056
    
    [GRAPHIC] [TIFF OMITTED] T3102.057
    
    [GRAPHIC] [TIFF OMITTED] T3102.058
    
    Mr. Mica. Thank you for your testimony. We will hold 
questions until we have finished all of the panels.
    And now, Charles Calkins for the Fleet Reserve Association. 
You are recognized, sir.
    Mr. Calkins. Thank you, Mr. Chairman, and other 
distinguished members of your subcommittee.
    I am Charles Calkins, the national executive secretary of 
the Fleet Reserve Association. And I wish to thank you for 
holding this hearing, and pushing forward with your strong 
commitment for our veterans.
    This bill will enable qualified veterans to compete in the 
mainstream of Federal employment. It is especially important 
that all Federal Government agencies support and actively 
adhere to the veterans' preference standards. Currently, this 
is not the case. Some agencies support in principle the 
existing statute, but in practice impose their own will as a 
substitute and answer to no one. An unsuccessful Federal 
applicant, who suspects discrimination based on sex, race or 
religion can appeal to the EEO Commission. A bypassed veteran, 
however, has no such recourse.
    This bill will enforce the Nation's commitments to its 
veterans. For over 200 years, the Nation has recruited men and 
women into military service. And in return for their dedication 
and years of service, veterans with the necessary skills and 
qualifications deserve special consideration for Federal 
employment.
    The Fleet Reserve Association urges quick action in passing 
this important legislation.
    And in conclusion, Mr. Chairman, if I might add. As 
president of the Military Coalition, I would like to remind you 
and your subcommittee members that you should have received a 
letter from the Coalition in support of H.R. 240. The Coalition 
represents 24 military and veterans' organizations with more 
than 5 million veterans members.
    Thank you again this afternoon, and let us hope that this 
passes through quickly.
    [The prepared statement of Mr. Calkins follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.059
    
    [GRAPHIC] [TIFF OMITTED] T3102.060
    
    [GRAPHIC] [TIFF OMITTED] T3102.061
    
    [GRAPHIC] [TIFF OMITTED] T3102.062
    
    [GRAPHIC] [TIFF OMITTED] T3102.063
    
    [GRAPHIC] [TIFF OMITTED] T3102.064
    
    Mr. Mica. Thank you for your testimony, and also your 
support.
    Sidney Daniels, with the Veterans of Foreign Wars, you are 
recognized.
    Mr. Daniels. Thank you, Mr. Chairman.
    Mr. Chairman and distinguished members of this 
subcommittee, we thank you for holding this hearing and for the 
opportunity to appear this afternoon.
    We thank you in particular, Mr. Chairman, for your 
leadership efforts in strengthening the veterans' preference. 
It is an issue of vital importance to the men and women who 
first served honorably in our armed forces, and who are now or 
will be part of the dedicated civilian Federal workforce of our 
Nation.
    Veterans' preference is an issue of enduring importance to 
those who served in the military, and an issue which we 
citizens and legislators have to have a responsibility to 
ensure. That the intent of the law matches the purpose and 
reality of veterans' preference as it is applied across the 
entire spectrum of civil service employment.
    The Veterans of Foreign Wars believes that the Equal Access 
for Veterans provision of the bill will greatly assist many 
highly qualified veterans, who are potential candidates for 
Federal employment, as well as those who already in the Federal 
workforce, to apply for and to compete for Federal jobs and 
positions.
    Contrary to the assertions of some, allowing veterans who 
are otherwise qualified to compete for jobs that are currently 
only open to insiders will only result in more women and 
minority veterans security Federal jobs, but increase the size 
of the pool of highly qualified candidates to choose from. 
This, in turn, enhances the overall quality of the Federal 
workforce.
    The VFW fully supports the proposed language found in 
Section 2, Subsection (b) of H.R. 240, which would require the 
Office of Personnel Management to maintain and publicize to 
State employment services all Federal job vacancies for which a 
veteran may apply. We recommend, however, that the provision 
include additional language making it clear that not only 
should the list of vacancies be maintained, but that each 
vacancy position be listed with the State Employment Security 
Agency in the region where the job is located.
    This listing of vacant positions will allow the federally 
funded veterans staff of that SESA to run an automated computer 
file search for veterans who are qualified for any given 
position. Additionally, such a listing of positions vacancies 
would address the issue many veterans do not apply for jobs 
they are qualified for simply because they did not know that 
such a vacancy existed.
    With respect to the provision requiring an Office of 
Personnel Management Report, the VFW recommends that the report 
to the President and the Congress be made an annual requirement 
for the first 2 years, and biannually thereafter. This 
recommendation is in recognition of the fact that major hurdles 
in implementing this law will likely occur in the first few 
years, and must be carefully monitored by all concerned.
    The VFW has been pleased to be a party to discussions with 
the American Postal Workers Union and their leadership. The 
APWU is to be commended for their commitment to veterans' 
preference as well as for their good faith discussions with 
veterans' organizations and the Congress in regard to the 
provisions of H.R. 240 affecting the U.S. Postal Service.
    We hope that the Postmaster General and the National 
Association of Postmasters of the United States will follow the 
APWU's leadership example and work in good faith to resolve any 
remaining concerns regarding this carefully crafted section of 
the proposed legislation. The VFW fully supports the 
provisions, however, as now written.
    We are firmly committed to ensuring that special 
protections are extended to veterans when a reduction in force 
action becomes necessary in an agency. The principle of special 
protections is consistent with the bumping and retreating 
provisions of the Veterans' Preference Act of 1944, as amended.
    In recent years, Mr. Chairman, it has become clear that 
protections afforded veterans in a RIF situation through the 
original Veterans' Preference Act of 1944 are no longer 
adequate for discouraging those forces who would willfully and 
knowingly design and implement a RIF that makes mockery of 
congressional intent. We believe that H.R. 240 would remedy 
that situation.
    We believe that these provisions effectively discourage so-
called designer RIFs, which have generated much concern of 
late. There is concern that some agencies have taken 
questionable personnel actions to skew the results of any 
legitimate reduction in force action months prior to the actual 
legal procedure.
    Mr. Chairman, we fully support the provision of the bill 
that establishes a redress mechanism for preference eligibles. 
As we understand the measure, the redress mechanism in its 
initial stage would allow a veteran who feels his or her 
preference rights have been violated to file a complaint with 
the Secretary of Labor within 60 days of the alleged violation.
    If the Labor Department is unable to resolve the complaint 
within 60 days, the complainant is then able to pursue an 
appeal with the Merit Systems Protection Board and ultimately 
the U.S. District Court.
    This concludes my statement, Mr. Chairman. I would be happy 
to take questions.
    [The prepared statement of Mr. Daniels follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.065
    
    [GRAPHIC] [TIFF OMITTED] T3102.066
    
    [GRAPHIC] [TIFF OMITTED] T3102.067
    
    [GRAPHIC] [TIFF OMITTED] T3102.068
    
    [GRAPHIC] [TIFF OMITTED] T3102.069
    
    [GRAPHIC] [TIFF OMITTED] T3102.070
    
    [GRAPHIC] [TIFF OMITTED] T3102.071
    
    [GRAPHIC] [TIFF OMITTED] T3102.072
    
    Mr. Mica. Thank you.
    I would now recognize Mr. Larry Rhea, with the Non-
Commissioned Officers Association. You are recognized, Mr. 
Rhea.
    Mr. Rhea. Thank you, Mr. Chairman. Good afternoon to you 
and all of the distinguished members of the subcommittee.
    The Non-Commissioned Officers Association, like my 
contemporaries here, appreciates very much your invitation to 
comment on the important legislation under consideration today. 
And I believe that it is appropriate for me to begin what will 
be brief oral comments by expressing to the distinguished 
chairman the deep admiration and appreciation that we have for 
the marvelous work that you have done on the issue that we are 
discussing.
    The Non-Commissioned Officers Association salutes you, sir. 
And we, too, are hopeful that 1997 will be the year that sees 
this come to a successful conclusion.
    I will not be repetitive of what has already been said. We 
certainly associate ourselves with the very well stated 
comments of the other panelists. But I would be remiss if I did 
not state that the Non-Commissioned Officers Association 
strongly supports H.R. 240, the Veterans' Employment 
Opportunities Act in its entirety.
    It is a solid bill that addresses head on a very real and 
persistent problem, and passage of the legislation is a very 
high priority for our association.
    So I will spend my time by informing the subcommittee of 
something that I think is important to state here. The support 
for H.R. 240 goes well beyond NCOA, the VFW, the Fleet Reserve 
Association, and the American Legion, the four organizations 
that are represented on this panel.
    I am unaware, Mr. Chairman, of any national prominent 
military or veterans' service organization that is opposed to 
the legislation. But let me be clear. I cannot speak for all 
military and veterans' organizations, and I do not want to 
leave that impression with anyone.
    I can, however, Mr. Chairman, say something on behalf of 19 
organizations. I invite your attention to the charts in the 
room. And I have a pamphlet in my hand that I would like to 
give to the chairman, and ask that it be made part of the 
hearing record.
    Because in addition to the four organizations on this 
panel, this chart and the pamphlet identifies 15 other military 
and veterans' organizations that are solidly seeking the 
enactment of H.R. 240.
    With your indulgence, Mr. Chairman, in addition to this 
panel, those organizations are the Air Force Sergeants 
Association; the American Veterans of World War II, Korea, and 
Vietnam; the Blinded American Veterans Foundation; the Blinded 
Veterans Association; the Disabled American Veterans, the 
Jewish War Veterans of the USA; the Korean War Veterans 
Association; the Military Order of the Purple Heart; the 
National Association for Uniformed Services; the National 
Military and Veterans Alliance; the Naval Reserve Association; 
the Paralyzed Veterans of America; the Retired Enlisted 
Association; the Veterans Economic Action; and the Vietnam 
Veterans of America.
    Those 15 organizations and the four on this panel, Mr. 
Chairman, collectively represent approximately 12 million 
veterans that want to see H.R. 240 become law. We believe that 
it is needed and deserves to be enacted in law.
    I vowed not to repeat what previously had been said. So I 
would like to conclude, Mr. Chairman, with just a philosophical 
thought. I mean no disrespect to anyone when I say this, but 
there has been a lot of talk about bridge building lately.
    I respectfully submit to the chairman and to the 
distinguished members of this subcommittee that H.R. 240 is not 
building something new. I submit to you that H.R. 240 is simply 
some much needed repair work that is overdue on a structure 
that was erected some 50 years ago.
    Veterans' preference at one time in our Nation's history 
was recognized as an earned right, but it has slowly been 
chipped away at. Veterans' preference at one time bridged 
sacrifices of military service with the veterans' dreams for 
the future.
    That is not the case today. And that fact makes H.R. 240 
all the more important. In NCOA's view, H.R. 240 is nothing 
more than reinforcement of the 50-year-old bridge that has been 
allowed to get a little bit shaky. It is about fairness and 
fulfilling an earned right.
    The Association salutes you, Mr. Chairman, for your effort 
to reestablish veterans' preference to its rightful and proper 
place in the Federal Government. Thank you.
    [The prepared statement of Mr. Rhea follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.073
    
    [GRAPHIC] [TIFF OMITTED] T3102.074
    
    [GRAPHIC] [TIFF OMITTED] T3102.075
    
    [GRAPHIC] [TIFF OMITTED] T3102.076
    
    [GRAPHIC] [TIFF OMITTED] T3102.077
    
    [GRAPHIC] [TIFF OMITTED] T3102.078
    
    [GRAPHIC] [TIFF OMITTED] T3102.079
    
    [GRAPHIC] [TIFF OMITTED] T3102.080
    
    [GRAPHIC] [TIFF OMITTED] T3102.081
    
    [GRAPHIC] [TIFF OMITTED] T3102.082
    
    Mr. Mica. I thank you for your testimony.
    And without objection, your material will be made part of 
the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3102.083
    
    [GRAPHIC] [TIFF OMITTED] T3102.084
    
    Mr. Mica. I want to thank each of the panelists for their 
testimony, and their suggestions for improvements in the 
legislation, and for working with us to get the legislation to 
this point. Those who testified here representing various 
organizations, and other veterans' services organizations and 
interested groups that have worked with us, deserve our thanks 
to get this legislation moving forward.
    I do not have any questions of the panelists at this time, 
but welcome your input as we move forward with this.
    I yield now to the ranking member, Mr. Holden.
    Mr. Holden. Thank you, Mr. Chairman. And I thank the panel 
for their testimony.
    I just have one question. I believe that one of the 
panelists testified that the number of preference-eligible 
veterans being hired is lower than the administration 
represents.
    I am just wondering what is the basis for this view?
    Mr. Naschinski. Because, sir, the figures that are 
collected by OPM represent all veterans, not those who are 
preference-eligibles. They do not break that down. And there is 
a big difference there.
    Mr. Holden. Thank you. No further questions.
    Mr. Mica. Thank you.
    And I will recognize Mr. Pappas.
    Mr. Pappas. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here and participating.
    It has been suggested during the course of today and coming 
up until this day, and moving to the day when hopefully we will 
move this bill forward, that over the past 40 or 50 years that 
the preference, if you will, for hiring veterans has slacked 
off. I am assuming you would agree with that, but please feel 
free to comment if you disagree with that.
    But could you also comment if you have seen over the period 
of time that you have been involved in veterans' causes and 
organizations, whether you have seen a funneling of veterans 
into certain categories of employment versus what you believe 
to be the case with non-veterans? I am curious if any of you 
would care to respond to that.
    Mr. Daniels. Certainly, there has been a fall-off in 
employment, but that is probably reflective of the aging 
population in general. Many of the veterans in the population 
who held Federal positions up until most recently were World 
War II veterans, who now happen to be at retirement age.
    The problem is with the influx of new people coming into 
the Government. We believe that the principles of veterans' 
preference have been diluted, because there are so many other 
different other types of hiring authorities where veterans' 
preference does not come into play.
    The outstanding scholar program is one that comes to mind, 
where I believe that an applicant for a Federal position only 
needs to have a 3.5 grade point average at the undergraduate 
level, and then is able to come into the Government non-
competitively.
    We happen to believe that any of these hiring authorities 
should respect veterans' preference.
    As to the other part of your question. Many of your 
agencies show--DOD, for instance, is proud of their 46.3 
percent veterans in their workforce. But when you ask them how 
many of those veterans are below the age of 30, which would 
take into account Desert Storm troops from 1991 up to the 
present, it is probably less than 1 percent.
    Most of the veterans coming into the Government today do so 
through a non-competitive route--the Veterans' Readjustment 
Assistance Program--which is an OJT type program. In this 
program you come into the Government, and you work and train 
for 2 years, after which you are eligible to convert to civil 
service status.
    In fact, many of the complaints we receive these days are 
from VRA people who are past the 2-year training period, and 
have not yet been converted to civil service status.
    That is my response. Thank you.
    Mr. Rhea. I would like to give that a shot here, too, Mr. 
Pappas. I certainly would just be guessing if I said anything 
along the lines of what levels they are at or anything, so I 
will not go into that.
    But your question, as I took it anyway, also alluded to a 
little bit of the lessening and the deemphasizing of the things 
that are going on. Certainly, the chairman pointed out one 
example to us there in his opening comments that should alarm 
us all. But if I could refer to some notes that I have here, I 
would like to take just a couple of quotes out of the U.S. 
Information Agency document that stated this.
    ``Veterans' preference will not be given for retired 
military. We are pleased to announce that for non-broadcasting 
USIA employees that we will not use RIFs to achieve 
reductions.''
    In other words, USIA is not only breaking the law, but they 
are more than happy to do so. Because if that military retired 
veteran qualifies for the 5 or the 10 point preference, they do 
not have a choice. They have to give it to them.
    Another example is the Department of Agriculture. You 
talked about the statistical profiles that you have there. The 
Department of Agriculture is not exactly a shining example. Yet 
a recently released DOA memorandum entitled Policy on Selection 
of Employees for Under-Represented Groups directed all 
selecting officials to justify in writing non-selection of 
candidates from the best qualified list who were from under-
represented protected groups.
    The 71 percent figure that the GAO report cited of 
certificates that were returned to OPM unused. And about what I 
just said relative to USIA and the Department of Agriculture. I 
have never, and I would be more than happy to be proven wrong 
on this, but I have never seen or heard of any agency asking 
for similar written justification for non-selection of a best 
qualified veteran at the top of the list.
    Mr. Pappas. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Ms. Norton.
    Ms. Norton. Mr. Chairman, I do not have a question, but I 
do have something that I want to say to the panel. Several have 
raised the notion of affirmative action and juxtaposed it 
sometimes invidiously to the veterans' preference.
    I would just like to say on the record that I, myself, 
would like to discourage the pitting of one group against 
another. That is what I have stood for all of my life. When we 
began to come forward for affirmative action of minorities, 
they said, ``Oh, here come the women.''
    The answer is yes, they should come, and we should find a 
way to make sure that there is some Government remediation or 
preference--yes, it is due--without picking fights with one 
another.
    I am very concerned about the 71 percent figure. And I 
believe that this committee has responded, that the 
subcommittee has responded in this very legislation to that 
figure. The circumvention of the law for any group is wrong. 
Minorities and women qualify for affirmative action for the 
very reason that veteran or not, our very Government 
discriminated against them throughout human time until very 
recently. And we are trying to make up for that.
    At the same time, anybody who served their country is 
entitled to a veterans' preference. And any attempt to violate 
the law with respect to that preference deserves to be 
remedied.
    I do not agree, as one of your testimony says, that there 
is very little incentive for Federal agencies to hire veterans. 
I think that a 5 point or a 10 point preference does give a 
unique incentive to hire. And if in fact that is not being 
done, we do not have to say that affirmative action should not 
happen in order to remedy that.
    I just want to make it clear that I believe that veterans, 
particularly today, are entitled to everything they have 
earned. And like the chairman and members of this committee, I 
will do all that I can to make sure that they not get one ounce 
less than they have earned. And I do not believe that that has 
anything to do with minorities and women, and the attempt on 
the part of our Government to make up for decades of 
discrimination against them.
    Mr. Mica. Thank you for your comments.
    And I recognize Mrs. Morella.
    Mrs. Morella. I just want to give you an opportunity if you 
would like to make any comments on the question that I asked 
Dr. King with regard to his testimony that the safeguards with 
regard to RIFs that are in the bill will add complexities to 
its enforcement. If you would like to comment or not.
    Mr. Rhea. I guess we will start on the right up here. 
Certainly, I appreciate those concerns that he has stated. But 
I guess that I can only give to you an old non-commissioned 
officer's reaction, and that is this. In our view, it probably 
would not be too difficult if we were doing the things that we 
were supposed to be doing today.
    And our stand on it quite bluntly is this. Whether it was 
intended or not, it might be an admission that we are not 
following the law the way that we are supposed to be following 
it today. Because I think that if we were, OPM, I think that if 
we were, DOD, and any other Federal agency could pick this 
legislation up and implement it with little difficulty at very 
little or maybe at no cost.
    Mrs. Morella. Thank you.
    Does anyone else have any other comments?
    Mr. Daniels. Yes, Mrs. Morella. I have a lot of faith in 
Jim King and the staff over at OPM. I believe that 90 days is 
an appropriate period of time to implement the law. It might be 
a little on the excessive side. OPM has operated the displaced 
employees program, which in effect is a RIF program, for a 
number of years. I am not really sure.
    In the case of DOD, they have operated their priority 
placement programs for over 30 years. They have a very 
admirable record. They have placed over 100,000 people since 
they started up their program. And I believe that both agencies 
are in a position to give whatever technical assistance is 
required of all of the other agencies that would now come under 
this particular bill once it is enacted.
    Mr. Calkins. Mrs. Morella, if I might respond, having 
recently left the Postal Service, as a former postal employee, 
and having worked in the personnel office, or having the 
fortune of working in the personnel office in the Postal 
Service.
    The figures that Dr. King gave are probably quite true 
throughout the agency as far as how many people were hired. the 
question that I would ask him, and of course Postmaster Runyon, 
is how many people were hired in the 5 years previous to that, 
because of the downsizing, or the rightsizing, or the RIFs, as 
it may be.
    And, of course, during that period of time, we were able to 
gain, for lack of a better term, a glut of veterans who 
recently got out of Desert Storm and a few other conflicts to 
buildup this veterans' pool again.
    I am not disputing what he has given us. I think the 
information was very good and very helpful. But I think that 
the hiring practice is in place and is there. Although in my 
own experiences in that personnel office that I came from, I 
heard from a person who was a non-veteran in charge of that 
office say something about a veteran, ``Well, we do not owe him 
anything.''
    And, of course, that got the hair on the back of my neck 
quite high. And when you have a person in that position, in 
that particular office, with that attitude, I wonder what the 
rest of that organization is thinking, or where they came from. 
But can it be put in place? Yes, tomorrow.
    Mrs. Morella. Mr. Naschinski, do you have any comments?
    Mr. Naschinski. Just to say that the American Legion 
believes that 90 days is sufficient time to get that mechanism 
in place.
    Mrs. Morella. I just want to thank you gentlemen for being 
here and testifying on this bill.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mrs. Morella.
    And I recognize Mr. Sessions.
    Mr. Sessions. Thank you, Mr. Chairman.
    Just one comment. Your comments get to me about, ``We do 
not owe veterans anything.'' All we owe them is the peace that 
they have given us, and the freedom that we enjoy. Because 
without veterans and the men and women who have given their 
lives, we would have neither. My personal preference is I 
prefer freedom.
    Thank you for being here with us today. And I just want to 
thank each one of you and your member organizations.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Sessions.
    Again, we appreciate you being with us, and your 
recommendations for this legislation. We look forward to your 
input and your constructive comments as we continue through the 
legislative process. Thank you also for the support that has 
been expressed here today.
    So with that, we will excuse this panel, and get on to the 
important work of marking up the legislation. Thank you.
    [Whereupon, at 3:23 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T3102.085

[GRAPHIC] [TIFF OMITTED] T3102.086

[GRAPHIC] [TIFF OMITTED] T3102.087

[GRAPHIC] [TIFF OMITTED] T3102.088

[GRAPHIC] [TIFF OMITTED] T3102.089

[GRAPHIC] [TIFF OMITTED] T3102.090

[GRAPHIC] [TIFF OMITTED] T3102.091

[GRAPHIC] [TIFF OMITTED] T3102.092

[GRAPHIC] [TIFF OMITTED] T3102.093


</pre></body></html>
